<html>
<title> - STOPPING THE SPREAD: EXAMINING THE INCREASED RISK OF ZOONOTIC DISEASE FROM ILLEGAL WILDLIFE TRAFFICKING</title>
<body><pre>[Senate Hearing 116-294]
[From the U.S. Government Publishing Office]


                                                       S. Hrg. 116-294

                   STOPPING THE SPREAD: EXAMINING THE IN-
                   CREASED RISK OF ZOONOTIC DISEASE FROM  
                   ILLEGAL WILDLIFE TRAFFICKING

=======================================================================

                                HEARING

                               BEFORE THE

                              COMMITTEE ON
                      ENVIRONMENT AND PUBLIC WORKS

                          UNITED STATES SENATE

                     ONE HUNDRED SIXTEENTH CONGRESS

                             SECOND SESSION

                               __________

                             JULY 22, 2020

                               __________

  Printed for the use of the Committee on Environment and Public Works
  
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]


        Available via the World Wide Web: http://www.govinfo.gov
        
        
                               __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
42-133 PDF                  WASHINGTON : 2020                     
          
--------------------------------------------------------------------------------------
        
        
        
               COMMITTEE ON ENVIRONMENT AND PUBLIC WORKS

                     ONE HUNDRED SIXTEENTH CONGRESS

                             SECOND SESSION

                    JOHN BARRASSO, Wyoming, Chairman
JAMES M. INHOFE, Oklahoma            THOMAS R. CARPER, Delaware, 
SHELLEY MOORE CAPITO, West Virginia      Ranking Member
KEVIN CRAMER, North Dakota           BENJAMIN L. CARDIN, Maryland
MIKE BRAUN, Indiana                  BERNARD SANDERS, Vermont
MIKE ROUNDS, South Dakota            SHELDON WHITEHOUSE, Rhode Island
DAN SULLIVAN, Alaska                 JEFF MERKLEY, Oregon
JOHN BOOZMAN, Arkansas               KIRSTEN GILLIBRAND, New York
ROGER WICKER, Mississippi            CORY A. BOOKER, New Jersey
RICHARD SHELBY, Alabama              EDWARD J. MARKEY, Massachusetts
JONI ERNST, Iowa                     TAMMY DUCKWORTH, Illinois
                                     CHRIS VAN HOLLEN, Maryland

              Richard M. Russell, Majority Staff Director
              Mary Frances Repko, Minority Staff Director
                            
                            C O N T E N T S

                              ----------                              
                                                                   Page

                             JULY 22, 2020
                           OPENING STATEMENTS

Carper, Hon. Thomas R., U.S. Senator from the State of Delaware..     1
Barrasso, Hon. John, U.S. Senator from the State of Wyoming......     4

                               WITNESSES

Semcer, Catherine, Research Fellow, Property and Environment 
  Research Center................................................     5
    Prepared statement...........................................     8
    Responses to additional questions from Senator Carper........    24
Epstein, Jonathan H., Vice President for Science and Outreach, 
  EcoHealth Alliance.............................................    26
    Prepared statement...........................................    29
    Responses to additional questions from:
        Senator Carper...........................................    43
        Senator Sanders..........................................    48
        Senator Gillibrand.......................................    49
Ashe, Daniel M., President and CEO, Association of Zoos and 
  Aquariums......................................................    52
    Prepared statement...........................................    54
    Responses to additional questions from:
        Senator Carper...........................................    60
        Senator Sanders..........................................    63

 
 STOPPING THE SPREAD: EXAMINING THE INCREASED RISK OF ZOONOTIC DISEASE 
                   FROM ILLEGAL WILDLIFE TRAFFICKING

                              ----------                              


                        WEDNESDAY, JULY 22, 2020

                                       U.S. Senate,
                 Committee on Environment and Public Works,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 10:06 a.m. in 
room 406, Dirksen Senate Office Building, Hon. John Barrasso 
(Chairman of the Committee) presiding.
    Present: Senators Barrasso, Carper, Braun, Rounds, 
Sullivan, Boozman, Ernst, Cardin, Whitehouse, Gillibrand, 
Booker, and Van Hollen.
    Senator Barrasso. I call this hearing to order.
    Good morning. Welcome.
    We have three witnesses who are joining us today to discuss 
what occurred late last year, a new disease reported in Western 
China. Since then, COVID-19 has disrupted life around the 
world, taken hundreds of thousands of lives, and devastated the 
global economy.
    While much is still unknown about the origins of COVID-19, 
experts agree that it is a zoonotic disease, and that is the 
purpose of this hearing.
    Due to the fact that a number of hearings are going on at 
the same time today, I am asking Ranking Member Carper to make 
his opening statement before I do, so that he can go 
participate in a markup that is happening at the Homeland 
Security Committee.
    Senator Carper.

          OPENING STATEMENT OF HON. THOMAS R. CARPER, 
            U.S. SENATOR FROM THE STATE OF DELAWARE

    Senator Carper. Mr. Chairman, thank you very much for your 
kindness, and I want to say to Catherine, to Dan, and to 
Jonathan, thank you, welcome in person, and from a distance. We 
are delighted to see you and appreciate your presence and your 
testimony.
    Mr. Chairman, thanks a whole lot for holding our hearing 
today, and while we have the Homeland Security Committee's 
meeting simultaneously right now with 28 bills in our markup, 
several of mine, so I am going to slip out for a while. I 
promise I will come back and ask some questions.
    While I believe it is critically important that we examine 
the ways in which we can prevent future pandemics, I would be 
remiss if I did not begin by acknowledging the severity of our 
own ongoing crisis. To put it plainly, Americans are suffering 
as the coronavirus continues to spread. We know that.
    More than 500 Delawarians have tragically lost their lives 
due to this disease, along with more than 140,000 other 
Americans, 140,000. To put those numbers in context, 25 percent 
of all COVID-19 related deaths that have occurred on this 
planet have occurred in our country, despite the fact that 
Americans constitute less that 5 percent of the world's 
population.
    Think about that, 25 percent. Getting this deadly virus 
under control and providing assistance to those who need it 
most must remain our primary focus.
    With that said, experts around the globe have acknowledged 
the connection between wildlife trade and the emergence of 
COVID-19. I appreciate the opportunity that we have here today 
to examine and better understand that connection.
    I have to be honest with you, Mr. Chairman and colleagues, 
in the Carper household, we don't use the word zoonotic every 
day. That is not an everyday source of conversation. We talk 
about baseball, the Detroit Tigers, and since the Tigers 
haven't given us much to talk about, recently at least, we have 
been spending a bit more time learning about some new things, 
and that includes zoonotic diseases.
    People may tune into our hearing today and wonder, what is 
zoonotic disease anyway? They might not realize that these 
days, zoonotic diseases have become a matter of our everyday 
lives and a topic of our daily conversation.
    Zoonotic diseases are diseases that are transmitted from 
animals to humans. Believe it or not, at least 61 percent of 
human diseases are zoonotic in nature.
    Some well known examples of zoonotic diseases include the 
West Nile virus, Lyme disease, and rabies. Another example of a 
zoonotic disease is the 2019 novel coronavirus, also known as 
COVID-19, or simply the coronavirus.
    While we still don't exactly know how the coronavirus made 
the leap from wildlife to human beings, we do know that 
unnatural conditions in live wildlife markets in China known as 
wet markets likely played a role.
    While tens of thousands of our own countrymen and women die 
from this virulent disease, it would be easy for us to simply 
point to the role that China and other countries play in 
wildlife trafficking and place blame. But the truth is that our 
country also plays a significant role in the global wildlife 
trade.
    For example, wet markets exist in the United States, too. 
They are not exactly like the wet markets found in Asia and 
elsewhere, and they are not as prevalent, but they do exist, 
and they may pose a real risk to human beings.
    As we consider the connection between illegal wildlife 
trafficking and zoonotic diseases, I hope we will not just 
place the blame on other countries, but rather do what is right 
by also reflecting upon our own practices here in the United 
States. We need to discuss how we as a country can better 
support our own State and Federal efforts to combat zoonotic 
diseases.
    For starters, there is a lot more we can do as a country to 
bolster research and encourage coordination regarding zoonotic 
diseases. To that end, I look forward to hearing ideas and 
advice from our esteemed panel of witnesses, particularly ideas 
for the U.S. Fish and Wildlife Service, which is in the 
jurisdiction of our Committee.
    We can also step up our efforts to support law enforcement 
in other countries and help those countries build capacity to 
combat wildlife trafficking. The United States can lead by 
example in this regard by working with other countries to 
reduce demand like we have done successfully in the past for 
highly trafficked parts such as animal parts, such as ivory.
    Moreover, it is worth noting that some of the international 
wildlife trade that could contribute to the emergence of future 
pandemics is legal. When it comes to legal wildlife trade, the 
United States, I am told, is a top importer of live animals. 
Much of this global trade is economically important, 
sustainable, and poses little risk to human health, but perhaps 
not all of it is. We may need to make difficult decisions and 
fundamentally change some of the ways in which we interact with 
wildlife right here in the United States and around the world.
    We know that natural, resilient ecosystems, when left to 
their own devices, thrive and support biodiversity. 
Biodiversity supports a healthier planet. But when we interfere 
and create unnatural conditions, the unintended consequences 
can sometimes be severe. For instance, wet markets increase the 
chance for disease transmission between species and then, 
ultimately to us, to human beings.
    Climate change may also create problematic, unnatural 
circumstances. For example, resource scarcity driven by climate 
change will cause humans to interact with new animals. As such, 
new wildlife species will likely be traded, increasing the 
already high risk for the spread of zoonotic disease. At the 
same time, as climate change continues to displace and disrupt 
both human and non-human populations, scientists expect that 
disease susceptibility will increase.
    As we seek to prevent future pandemics caused by zoonotic 
disease, we would be wise to try and minimize the forces of 
uncertainty. We have learned that climate change will almost 
certainly bring with it more uncertainty to the management of 
zoonotic diseases, which is one more reason why addressing 
climate change is critical to the prevention of future 
pandemics.
    When the United States addresses its shortfalls at home in 
the interest of creating a more perfect union and a better 
world, we need to send a strong signal to both friends and foes 
abroad when we lead by our example. That is precisely what I 
hope we will strive to do as we contemplate the next steps to 
combat wildlife trafficking and the prevention of future 
pandemics.
    In closing, Mr. Chairman, thank you for this hearing.
    I want to thank our staffs, both on the majority side, and 
I want to thank Elizabeth Mabry, who is sitting behind me over 
my right shoulder for her passion on these related issues. 
Thank you so much.
    I will be back soon. Thanks.

           OPENING STATEMENT OF HON. JOHN BARRASSO, 
             U.S. SENATOR FROM THE STATE OF WYOMING

    Senator Barrasso. Thank you, Senator Carper.
    To continue, zoonotic diseases are caused by germs, germs 
that spread between animals and humans, and can lead to many 
types of illnesses and even to death. Scientists estimate that 
about 75 percent of newer emerging infectious diseases in 
people originate in animals.
    COVID-19 is not the first disease to come from wildlife. 
HIV, SARS, MERS, Ebola, West Nile virus, Lyme disease, are all 
examples of zoonotic diseases.
    A variety of factors increase the risk of an outbreak of 
these diseases, including illegal wildlife trafficking and 
unregulated wildlife trade, poor sanitation practices when 
handling raw or minimally processed meat that comes from wild 
animals, known as bushmeat, changing land use practices, and 
global travel that makes it very possible for diseases to 
rapidly move from remote locations to urban centers and around 
the world in a matter of days.
    Many countries facilitate illegal wildlife trafficking, 
unregulated wildlife trade, and poor sanitation practices when 
handling bushmeat. They elevate the risk of spreading disease 
and should be held accountable.
    China is one of the most egregious actors. According to a 
December 2018 report by the U.S.-China Economic and Security 
Review Commission, ``China is widely recognized as the world's 
largest market for trafficked wildlife products.''
    Chinese demand for trafficked wildlife has contributed to 
population declines of iconic species such as elephants, 
rhinos, tigers, as well as lesser known species.
    For years, scientists have voiced concerns about China's 
poor sanitation practices when handling bushmeat.
    Almost 15 years ago, the journal Current Opinions on 
Infectious Diseases, published an article entitled ``Infectious 
Diseases Emerging from Chinese Wet Markets: Zoonotic Origins of 
Severe Respiratory Viral Infections.'' It called these wet 
markets a unique place for transmission of zoonotic disease to 
humans.
    In April, Secretary of State Mike Pompeo called on China to 
permanently close its wet markets, citing the ``strong link 
between illegal wildlife sold in wet markets and zoonotic 
diseases.''
    That same month, Dr. Anthony Fauci, Director of the 
National Institute of Allergy and Infectious Disease, told the 
morning news program Fox and Friends that the current public 
health crisis is a direct result--a direct result--of China's 
wet markets.
    China announced a permanent ban on wildlife trade and 
consumption in February, but the action was met with 
skepticism. In an analysis it published in response to China's 
announcement, the Wildlife Conservation Society called it a 
good step, but warned, a potential loophole for traffickers 
which may exploit the non-food exemptions to sell or trade live 
wildlife, creating additional challenges to law enforcement 
officers.
    The skepticism, I believe, is well founded. China took 
similar steps in response to the 2003 SARS outbreak, only to 
reverse them once the spotlight was off the crisis.
    This Committee has jurisdiction over the U.S. Fish and 
Wildlife Service, which has the primary responsibility for 
implementing the Convention on International Trade in 
Endangered Species, CITES; you know it well.
    The Fish and Wildlife Service issues permits for the import 
or export of protected species. It also has domestic and 
international law enforcement and investigative 
responsibilities related to wildlife trafficking. Part of that 
work includes inspecting cargo for wildlife contraband and 
providing grants aimed at preventing wildlife trafficking.
    This Committee also has jurisdiction over the Endangered 
Species Act and the Lacey Act. The Committee has taken action 
to address illegal wildlife trafficking and unregulated 
wildlife trade. In 2019, the Committee successfully 
reauthorized the Multinational Species Conservation Funds, 
which provide grants to help conserve elephants, rhinos, great 
apes, tigers, from poachers and wildlife traffickers.
    We also established the Theodore Roosevelt Genius Prizes. 
These prizes provide cash awards to encourage technological 
innovation to address challenges confronting wildlife, 
including protecting endangered species and preventing wildlife 
poaching and trafficking.
    We accomplished these and other important wildlife 
conservation priorities in the Wildlife Innovation and 
Longevity Driver Act, the WILD Act, which I sponsored along 
with Senators Carper and Inhofe and Booker and Boozman and 
Whitehouse. Totally bipartisan. The WILD Act was signed into 
law last March, March 12th, 2019.
    I look forward to continuing to work with my colleagues to 
ensure China and other countries are held accountable and take 
appropriate action to minimize the risk of future disease 
outbreaks. Illegal wildlife trafficking, unregulated wildlife 
trade, and poor sanitary practices increase the risk of 
diseases spreading from animals to humans. China is the prime 
bad actor in facilitating the spread of such diseases and must 
be held accountable.
    We are now going to hear from our witnesses, and I am 
delighted that all of you are here today. Catherine Semcer, who 
is the Research Fellow at Property and Environment Research 
Center; Dr. Jonathan Epstein, Vice President for Science and 
Outreach at EcoHealth Alliance who is joining us remotely today 
from Long Island, New York; and Hon. Dan Ashe, who is well 
known as a friend of this Committee and has testified over the 
years, who is now President and CEO of the Association of Zoos 
and Aquariums.
    I would like to remind the witnesses that your full written 
testimony will be made part of the official hearing record, so 
please keep your statements to 5 minutes so that we may have 
time for questions.
    I look forward to your testimony, and I ask Ms. Semcer to 
please proceed.

 STATEMENT OF CATHERINE SEMCER, RESEARCH FELLOW, PROPERTY AND 
                  ENVIRONMENT RESEARCH CENTER

    Ms. Semcer. Chairman Barrasso, Ranking Member Carper, 
members of the Committee. My name is Catherine Semcer, and I am 
a research fellow with the Property and Environment Research 
Center, a conservation research institute based in Bozeman, 
Montana.
    Prior to joining PERC, I was part of the leadership team of 
a U.S. based non-governmental organization that provides 
training, advisory assistance, and procurement services to 
African counter-poaching programs.
    The United States recognizes wildlife trafficking, 
ecosystem degradation, and pandemic disease as interrelated 
threats to national security. Habitat destruction and direct 
human contact with some species of wildlife increases the risk 
of zoonotic disease transmission from wildlife to humans. So 
our environmental stewardship will determine whether or not the 
scale of these threats increases or diminishes.
    This is especially true in regard to our engagements in 
Africa, where the potential for another pandemic to arise as a 
result of deforestation or wildlife trafficked out of the 
continent's wild lands is high.
    Currently, Chinese investment influence over natural 
resource management in Africa threatens to remove the natural 
buffer between humans and disease carrying wildlife. Despite 
the efforts of the Chinese government to encourage 
environmentally responsible behavior among its companies and 
nationals working in Africa, their extensive involvement in 
deforestation and wildlife trafficking is putting more humans 
in direct contact with wildlife, increasing the risk of disease 
transmission.
    For example, in the Congo Basin, where Chinese investment 
in the timber sector is high, recent research has shown the 
number of logging roads penetrating the rainforest has 
increased by more than 40 percent since 2003.
    Just this week, Malawi convicted seven Chinese nationals 
involved in the trafficking of pangolin scales, a crime 
believed to present an especially high risk of facilitating the 
spread of disease.
    The longstanding efforts of the Chinese government to 
decrease involvement of their citizens in these harmful 
activities have not met with desired levels of effectiveness at 
the necessary speed to ensure our collective security. Despite 
demand reduction campaigns and outright bans on illegally 
harvested timber, ivory, pangolin, and other products, Chinese 
consumer demand continues to drive these activities.
    China is the world's largest market for timber, and an 
estimated 75 percent of all raw logs exported from Africa are 
destined for the Chinese market. The 2020 World Wildlife Crime 
Report issued by the United Nations earlier this month stated 
that China remains a leading destination for seized rhino horn 
and pangolin shipments.
    The United States, through the programs of the U.S. Fish 
and Wildlife Service and other agencies, must take an increased 
leadership role in efforts to secure global health by 
conserving ecosystems and curtailing wildlife trafficking, 
especially in and from Africa. Policies under the Endangered 
Species Act can play a key role in delivering the necessary 
U.S. leadership.
    Because many African nations rely on sustainable hunting 
programs to incentivize the habitat conservation and anti-
poaching efforts, the regulatory obstacles created by species 
listing and hunting trophy import decisions can undermine the 
ability of African nations to maintain healthy ecosystems and 
combat wildlife trafficking at the beginning of the supply 
chain.
    Currently, sustainable hunting programs conserve an area of 
habitat in Africa that is more than twice the size of the U.S. 
National Park System. This conservation is an outgrowth of the 
economic incentives and revenues hunting generates for rural 
communities and private landowners.
    Restrictions on the importation of hunting trophies into 
the U.S. stemming from the Endangered Species Act have caused 
the abandonment of at least 6 million acres in Tanzania that 
had been conserved from hunting revenues. Some of this land is 
now being cleared for agriculture, resulting in ecosystem 
degradation and increased risk of viral spillover.
    African wildlife authorities also derive significant 
revenue from hunting related fees. In Tanzania, all of the 
anti-poaching operations of the Tanzania Wildlife Management 
Authority have been funded with hunting related revenues, while 
in Zimbabwe, the Zimbabwe Parks and Wildlife Management 
Authority derives 30 percent of its operating budget from 
hunting licenses and fees.
    Improving the Endangered Species Act by requiring that 
listing and importation decisions take into account the ability 
of range nations to finance habitat conservation and field 
anti-poaching programs can strengthen the likelihood of 
containing bio-threats and interrupting the supply chain of 
trafficked wildlife at or close to its source. This will reduce 
the risk of disease spread and improve our collective security.
    For these reasons, I encourage this Committee to consider 
these recommendations in future debates it may have on the 
Endangered Species Act.
    Thank you.
    [The prepared statement of Ms. Semcer follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 
    
    Senator Barrasso. Thanks so much for your very thoughtful 
testimony. We appreciate it.
    We are now going to head to Long Island, New York.
    Dr. Epstein, I appreciate you taking the time to join us. I 
know that you were prepared to come and visit us today, but 
based on issues that relate to returning to New York and a 14-
day mandatory quarantine, we understand your reasons to want to 
stay on Long Island, but thank you very much for joining us 
today, Doctor.

 STATEMENT OF JONATHAN H. EPSTEIN, VICE PRESIDENT FOR SCIENCE 
                AND OUTREACH, ECOHEALTH ALLIANCE

    Mr. Epstein. Thank you, Senator Barrasso, and thank you 
very much for the invitation. I particularly appreciate the 
Committee's flexibility in allowing me to testify remotely.
    I would also like to thank Ranking Member Carper and 
members of the Committee for holding this important hearing 
today.
    My name is Dr. Jon Epstein. I am the Vice President for 
Science and Outreach at EcoHealth Alliance, which is a science 
based non-profit located in New York City.
    For those of you who are unfamiliar, EcoHealth Alliance 
works globally with partners around the world to study the 
relationships between human and animal health and human 
activities that drive the emergence of new diseases, ultimately 
with the intention and effort to stop epidemics from happening.
    As was mentioned earlier, and I think you set the stage 
very nicely for this conversation, the majority of emerging 
diseases are zoonotic, and about three-quarters of them come 
from wildlife, so wildlife play an incredibly important role in 
our health. Diseases like the 1918 influenza, which originated 
in migratory waterfowl; HIV which originated in chimpanzees and 
other primates; SARS coronavirus, which was natural reservoirs, 
or bats; and now SARS-CoV-2, the virus responsible for COVID-
19, which likely also has an origin in bats.
    However, it is important to mention that it is not the fact 
that wildlife carry disease, rather that it is human activities 
that increase our interaction with wildlife that drives disease 
emergence. So the global wildlife trade becomes very important. 
As we know, it is a complex and far reaching multi-billion 
dollar industry, transporting live animals and animal parts 
locally and globally for food, medicine, pets, clothing, and 
ornaments.
    As mentioned, there are two facets to the wildlife trade 
that are both legal and illicit components; the latter, which 
is second really only to guns and narcotics in scale, and 
perpetrated by criminal and organized networks.
    In general though, whether legal or illicit, the wildlife 
trade increases risk of zoonotic disease emergence by bringing 
people and wildlife into closer and more frequent contact, 
beginning in local communities during the process of capturing 
animals, and ends with transport to wildlife markets, which may 
involve multiple species being carried together and 
intermingling. Then there is handling and butchering of 
animals, particularly in live animal markets.
    There is spillover risk at every stage. The opportunity for 
viruses or bacteria that are carried naturally by wild animals 
to make their way from those natural hosts into either other 
animal species or into people. It is particularly risky in 
crowded, urban wet markets, as was the case with SARS back in 
2002, which emerged in southern China, which gave the virus an 
opportunity to spread inside the market among different animals 
species, and then ultimately into people, before it made its 
way internationally through travel.
    Although wet markets are common in southern China, the 
reality is they exist all over the world. They are not unique 
to China, specifically, though the risks are similar wherever 
they look. Nearly every country in the world is involved in 
wildlife trade in one form or another.
    In the United States and the global community, we continue 
to be vulnerable to zoonotic disease outbreaks, because there 
is a lack of effective surveillance for zoonotic viruses in 
wildlife, livestock, and people, particularly in the parts of 
the world that are most at risk for disease emergence, which 
inhibits our ability to rapidly detect and contain an outbreak 
while it is still localized, and before wider spread through 
travel can occur.
    I thought it would be helpful to briefly discuss a study 
that we published, that EcoHealth Alliance published back in 
2017, and I am just going to share my screen briefly and put an 
image up that I think many of you have in your briefing packets 
or hopefully can see in the room.
    Is this map visible?
    Senator Barrasso. Yes, very clear, thank you very much.
    Mr. Epstein. OK, great. This comes from a study that looks 
at the drivers, or the factors that cause disease emergence, 
particularly zoonotic disease emergence. What you are looking 
at is a global hot spots map, which is really a map showing 
parts of the world that are particularly vulnerable to zoonotic 
disease emergence. The areas that are more yellow are higher 
risk.
    This is a statistical analysis, a predictive analysis, that 
looks at things like biodiversity, species richness, human 
demography, livestock production, and dynamic processes that 
influence how we contact wildlife, like land use change. That 
can be deforestation or land conversion to agricultural land or 
urbanization.
    What you will notice is that, well, two things. One is, we 
now scientifically now have a good understanding of where in 
the world we are likely to continue to see epidemics begin, 
based on these risk factors.
    Second, many of these areas around the world also overlap 
with wildlife trafficking hubs or origins. Parts of Asia, parts 
of Africa, and parts of the Americas, which to no surprise, 
particularly are areas where there is a lot of species richness 
and biodiversity, which tend to be sources for the wildlife 
trade.
    All that is to say that we know where to focus resources, 
both in terms of stopping pandemics from happening locally, but 
also understanding better some of the drivers that cause them.
    The last thing I wanted to mention was that imported exotic 
animals and smuggled bushmeat increases the risk of disease 
introduction to the United States.
    A 2010 GAO report from the Department of Homeland Security 
and Government Affairs identified gaps in our ability to detect 
zoonotic pathogens in imported animals, due to a lack of 
coordination among Federal health agencies and the absence of a 
single agency responsible for screening live animal imports for 
zoonotic agents.
    The report called for greater cooperation among Federal 
agencies including the U.S. Fish and Wildlife Service, and 
cited the value of public-private partnerships with NGOs and 
universities helping to fill these gaps.
    Today, these issues still remain, and there is an 
opportunity for this Committee to expand the scope of the U.S. 
Fish and Wildlife Service to lead disease surveillance on 
imported wildlife, working in concert with the CDC, the Center 
for Disease Control and Prevention, the U.S. Department of 
Agriculture, and the USGS National Wildlife Health Center. This 
would significantly strengthen our capacity to detect zoonotic 
viruses at the U.S. border and possibly in other countries as 
part of a pre-border surveillance program.
    I look forward to the opportunity to discuss specific ideas 
about the U.S. Fish and Wildlife's involvement in disease 
surveillance in the course of today's hearing, and to answer 
any questions that the Committee may have.
    Thank you very much.
    [The prepared statement of Mr. Epstein follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
         
    Senator Barrasso. Well, thank you so much for joining us, 
and thanks for that very helpful testimony.
    I would like to now turn to Mr. Ashe.
    Welcome back to the Committee.

STATEMENT OF DANIEL M. ASHE, PRESIDENT AND CEO, ASSOCIATION OF 
                       ZOOS AND AQUARIUMS

    Mr. Ashe. Thank you, Chairman Barrasso, and Mr. Ranking 
Member Carper, for this opportunity to testify today.
    Addressing trade in live wild animals, legal and illegal, 
is an essential step in reducing the risk of pandemics. It is 
achievable, but U.S. leadership is essential.
    As many of the members and the witnesses today have said, 
we know that diseases spill over from other animals to humans. 
So it is no surprise that the COVID-19 pandemic is thought to 
have emerged from trade in wild animals, as did SARS 17 years 
earlier, MERS, Ebola, HIV-AIDS and many others that have been 
mentioned.
    Our current crisis was predictable and preventable, and 
unless we learn from it and take stronger steps to understand 
and reduce related risks in trade, the same will be true of the 
next pandemic and the next. As the world population grows 
toward 10 billion by mid-century and we continue to fragment 
functional ecosystems, continue expanding trade and trafficking 
in wild animals, and literally turning up the heat on this 
global cauldron, we will see the risk and frequency of zoonotic 
diseases continue rising.
    The root of the problem is unregulated and underregulated 
trade in wild animals, particularly for human consumption as 
food or medicine. This is generally independent of whether the 
animals are threatened or endangered, whether they are removed 
from the wild or bred in captivity, or whether the trade is 
legal, illegal, sustainable, or unsustainable.
    The key is determining where and how the trade creates 
significant risks of disease spillover due to the numbers of 
animals involved, the crowded and unsanitary conditions and 
trans-shipment, and in markets, the related stresses on and 
illnesses in animals, and mixing of domestic and wild animals, 
both living and dead, risks that are likely elevated in illegal 
trade.
    At this moment, our clear priority should be ending 
commercial trade in live wild animals for human consumption. It 
is no easy task, because globally the livelihoods and 
nutritional needs of millions of people are linked to it.
    But of course I have a few thoughts on how we can begin. 
No. 1, lead by example. Amend the Lacey Act to strengthen our 
Government's ability to identify, designate, and stop injurious 
species including dangerous pathogens from entering the United 
States and from moving in interstate commerce if and when they 
arrive here.
    Two, build a global regulatory framework to regulate this 
trade. I believe this is best done by amending the existing and 
successful Convention on International Trade and Endangered 
Species, or CITES, providing one overarching international 
framework to regulate trade in wildlife. The United States can 
lead by building a coalition of like minded countries to 
advance this effort, and this Committee can direct the U.S. 
Fish and Wildlife Service to engage and encourage the CITES 
Secretariat.
    Three, continue expanding efforts to control illegal 
wildlife trade. The whole of government approach that began 
during the Obama administration has continued during the Trump 
administration. It should be supercharged to tackle the entire 
trade chain, increase enforcement capacity here and abroad, 
treat wildlife crime as serious crime, reduce demand and expand 
diplomacy.
    Four, in large U.S. efforts in international conservation 
like the Central Africa Regional Program for the Environment or 
CARPE, run by the United States Fish and Wildlife Service, 
remove recently imposed sanctions and barriers on that program, 
and support large scale global initiatives like Campaign for 
Nature, to protect 30 percent of nature by 2030.
    If we do these things, we can pressure and support other 
governments in permanently closing high risk wildlife markets 
while helping communities and wildlife live a healthier 
coexistence, and transition to more reliable, affordable, and 
sustainable sources of nutrition.
    AZA accredited aquariums and zoos are experts in the trade, 
trans-shipment, care, and conservation of wildlife, and the 
safe and healthy interaction between wildlife and humans.
    We stand ready to support and help you move this important 
issue forward.
    Thank you very much, Mr. Chairman.
    [The prepared statement of Mr. Ashe follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 
    
    Senator Barrasso. Well, thank you all for your testimony. I 
am very grateful you would take your time to visit on this 
important issue and share your remarkable expertise that each 
of you have.
    Let me start with some questions.
    Ms. Semcer, the Chinese communist government has a history 
of deceiving the world, doing it when it comes to issues that 
are unfavorable to their country's ruling regime. China claims 
it is taking action to reduce demand for illegally trafficked 
wildlife, including banning the domestic trade of ivory, 
preventing the sale and consumption of wildlife.
    Do you believe the Chinese government's efforts are having 
the desired impact when it comes to reducing the domestic 
demand for wildlife?
    Ms. Semcer. Mr. Chairman, I would refer the Committee to 
the recent U.N. World Wildlife Crime Report issued earlier this 
month, which showed that China remains a leading destination 
for pangolin, for rhino horn. I would also refer the Committee 
to a recent report from the World Wildlife Fund showing that 
all demand for ivory within China has stabilized.
    For those Chinese citizens who are able to travel abroad, 
consumption of ivory has increased by 10 percent between 2018 
and 2019. As I said just a few minutes ago, despite the efforts 
of the Chinese government, they don't seem to be moving fast 
enough to achieve the desired effect.
    Senator Barrasso. Dr. Epstein, are there some additional 
activities that you think the U.S. Fish and Wildlife Service 
should carry out to prevent the spread of zoonotic diseases?
    Mr. Epstein. Yes, that is a great question, and I think 
there are certainly specific activities.
    Following on the recommendations from that GAO report that 
I referenced, one thing to begin with would be an internal 
review of resource needs that would be required to implement 
wildlife disease surveillance. One of the things that we are 
seeing globally that is starting to change, but it is 
historically not been true, is that wildlife agencies 
historically have not been part of health response.
    Clearly, there is a need for that. And there are also 
significant gaps in wildlife disease surveillance as it 
pertains to zoonotic disease. So the Fish and Wildlife Service 
by conducting internal review to see how there could be 
improved surveillance, disease surveillance, both at border and 
pre-border through activities that they are conducting.
    Also, to help identify and remove barriers to more 
effective coordination with other U.S. agencies. That is still 
something that we need to strive for, is coordination with our 
human health and livestock health agencies.
    Another thing might be to expand U.S. Fish and Wildlife 
Service's mandate to lead on border surveillance and pre-border 
disease surveillance to really work to make them the agency 
that takes charge for screening incoming live animals, 
particularly wildlife, for zoonotic disease, something that Mr. 
Ashe mentioned earlier.
    Also, to work with partner countries, and particularly 
wildlife and anti-trafficking agencies, to develop and 
implement risk reduction strategies for disease transmission 
related to wildlife trade and trafficking. There is already 
really excellent coordination with many wildlife agencies 
around the world, and this could simply be leverage to add on 
surveillance and screening activities.
    Two other thoughts were that, it is important--and this was 
something that Dan brought up earlier, Mr. Ashe brought up 
earlier, which is that legislation alone isn't sufficient. We 
need to also work to reduce the demand for wildlife locally in 
other countries.
    U.S. Fish and Wildlife Service could play a role in working 
to really study and understand the sociological drivers that 
drive consumption of wildlife and work to reduce demand, while 
at the same time, stepping up enforcement and surveillance 
activities.
    I don't want to take too much time; there are other ideas. 
But in short, I think really, seeing U.S. Fish and Wildlife 
Service expand their mandate and start to look at disease 
surveillance as part of their wildlife activities would be very 
effective at helping protect both the health of Americans, but 
also global health as well.
    Thank you.
    Senator Barrasso. Thank you.
    Ms. Semcer, the climate created by the coronavirus has led 
to some calls to ban trophy hunting. In September 2019, 
however, you wrote an article entitled ``Conservationists 
Should Support Trophy Hunting.'' In that article, you mentioned 
how 132 researchers joined you in an open letter that was 
published in Science Magazine, recognizing that trophy hunting 
operations in the Sub-Saharan Africa area have provided 
incentives to conserve an area of wildlife habitat more than 
two times the size of the United States National Park System.
    Could you explain to us how trophy hunting conserves land, 
and in turn, reduces the risk of zoonotic disease spillover?
    Ms. Semcer. Yes, Mr. Chairman. The safari hunting trade in 
Africa provides economic incentives for the conservation of 
habitat, particularly in rural areas.
    It does this through a number of means: Cost sharing 
agreements between safari hunting operators and local 
communities, for example in Zimbabwe, in what are known as the 
Campfire Areas, local communities get about 50 percent of the 
proceeds that come from safari hunting operations.
    Because of this injection of cash, they then have an 
incentive to conserve the habitat that the safari hunting 
operators require to conduct business. That cash has added 
health effects in that it often goes to create infrastructure, 
such as development of clean water sources, which is key for 
doing something that we take for granted, like washing our 
hands. Similarly, it can be used to build health clinics, which 
can serve as the early warning system when disease outbreaks do 
occur.
    Senator Barrasso. Thank you, all of you, for your answers.
    I am now just going to turn to Senator Cardin, who is with 
us remotely.
    It appears that he has stepped away for a moment.
    Senator Gillibrand, if you are on, I would like to turn the 
time over to you, please.
    Senator Gillibrand. Yes, I am here. Thank you.
    Mr. Ashe, you mentioned that if we are to effectively 
address the global threat of zoonotic diseases, we need a 
global regulatory framework to mitigate the risk. I 
wholeheartedly agree with that approach, and believe that we 
must take a similar approach at home.
    That is why I am a cosponsor of the Advancing Emergency 
Preparedness Through One Health Act, which would improve public 
health preparedness by ensuring Federal agencies advance a one 
health approach to prevent and respond to future outbreaks. 
Bridging the gap between research and response is critical to 
mitigating future human and animal spillover events.
    In your experience as a former Director of the U.S. Fish 
and Wildlife Service, what type of agency coordination seems to 
be working well, and two, what gaps exist in our current 
approach, and what can Congress do to fill those gaps?
    Mr. Ashe. Thank you, Senator Gillibrand.
    The kinds of things that work well are the efforts that are 
the most collaborative, and you mentioned that. I think we have 
joined with States and universities and health organizations to 
tackle issues like chronic wasting disease or Lyme disease. I 
think we have done extraordinarily well.
    I think the gaps often, most often, in my view, are the 
resources to support that kind of work. So I think as we look 
forward, both internationally and here in the United States, I 
think the resources to build the framework to support that kind 
of collaboration and the science that is needed to drive the 
decisions that need to be made in the context of those 
collaborative efforts.
    So there are plenty of examples of success here in the 
United States, but we need to support that success, we need to 
build upon it. We need to expand it and export that globally so 
that we can bring the same expertise, the same capacity, the 
same vision to efforts internationally.
    Senator Gillibrand. Thank you.
    For the entire panel, how does the U.S.'s withdrawal from 
the World Health Organization affect U.S. participation and 
engagement in improving international disease surveillance 
efforts and combating the illegal wildlife trade and wet 
markets?
    Mr. Ashe. I will begin by saying, again, in continuation of 
my recent answer, I think international cooperation is going to 
be essential in dealing with these. We can't push off 
international organizations; we need to bring them together.
    I testified in support of the Convention on International 
Trade and Endangered Species as kind of one coordinated effort 
to regulate trade and wildlife, but the World Health 
Organization will bring expertise to that regulatory mechanism.
    So I think what this coronavirus pandemic is showing us is 
that we need to cooperate like we have never cooperated before, 
because we can't solve these problems from within the United 
States borders. We have to work internationally if we are going 
to be successful.
    Mr. Epstein. If I may, I would like to build on that, too. 
I agree wholeheartedly that cooperation with intergovernmental 
agencies is necessary, because they have trust and 
relationships and authority as experts with so much of the 
world. The WHO in particular has been a proponent of one health 
approaches to disease surveillance and response and work 
closely with counterparts and other intergovernmental agencies, 
such as the World Organization for Animal Health and the IUCN, 
as well as universities and U.S. Federal agencies.
    So that relationship is really important in terms of really 
being able to not only conduct research activities to 
understand disease risk, but also to help implement policy 
change that is going to reduce the risk of diseases emerging.
    Senator Gillibrand. Dr. Epstein, can I ask you another 
question? As you know, emerging infectious disease risks 
associated with wildlife trade continue to be the largest unmet 
challenge of current disease surveillance efforts.
    In your testimony, you indicate that more surveillance of 
wildlife internationally is needed if we are to fully 
understand the extent of the role wildlife markets have played 
in the COVID-19 pandemic. Are there steps that you recommend 
that the U.S. take to approve global surveillance efforts? How 
do you recommend prioritizing investments in surveillance 
efforts? For example, is viral discovery through wildlife 
surveillance more of a priority than establishing disease 
surveillance across communities likely to be in or near 
spillover hot spots?
    Mr. Epstein. That is a fantastic question, thank you.
    The answer is, yes, absolutely. Understanding what is out 
there in nature, the diversity of viruses, and understanding 
which among those should be paid closest attention to in terms 
of their potential to emerge in human populations will help 
guide strategies for mitigating risk.
    But that has to be done in concert with sociologic and 
behavioral research that understands where the high risk 
behaviors are occurring, and in parts of the world such as I 
showed with the hot spots map where we already know there is 
increased risk for disease emergence.
    So we can prioritize and target interventions and 
strategies by understanding where the risk is, understanding 
where we need to be paying attention in terms of the types of 
wild animal species that are likely to carry zoonotic viruses, 
and the areas where people and wildlife and domestic animals 
have the most contact where those viruses are most likely to 
spill over.
    That is how we can effectively get at reducing that risk. 
That requires cooperation and collaboration with local 
governments, local scientists, and agencies within country that 
have the best understanding and knowledge of the local context 
and circumstances.
    Thank you.
    Senator Gillibrand. Thank you, Mr. Chairman.
    Thank you, Mr. Ranking Member.
    Senator Barrasso. Thank you very much, Senator Gillibrand.
    Senator Braun.
    Senator Braun. Thank you, Mr. Chairman.
    The importance of this topic is not only for the health 
considerations, but over a period of time, rural economies, 
especially any landowners that have wooded property, a 
significant amount of income comes from leasing hunting rights.
    I think that the magnitude of what we are talking about 
here, especially when I look at the statistics at how prevalent 
it is for something to jump from one species to ours and 
highlighted by what we have seen just recently and what we are 
dealing with, it is almost staggering to think about the 
implications.
    I know in our State of Indiana that we are surrounded, for 
instance, by chronic wasting disease, which I think, up to this 
point, has not been proven to jump from a deer into a human 
being.
    But I guess what bothers me mostly would be the 
infrastructure, at the grassroots level, when it comes to the 
various State departments of natural resources, which is what 
ours goes by, then various divisions within.
    What is that leading edge of where we are actually going to 
find out about this before you find out about it the hard way, 
like we have with COVID? What is that structure like in this 
country, and how prepared are we to recognize it and do 
something about it? That would be for any of the panelists.
    Mr. Ashe. Senator, I think the most important ingredient is 
awareness, and then the dedication to attack and solve the 
problem and the resources to do that. Again, with chronic 
wasting disease, there has been an enormous effort between the 
State fish and wildlife agencies and the U.S. Fish and Wildlife 
Service and the U.S. Department of Agriculture to learn about 
chronic wasting disease, how it moves, how it spreads among 
white tailed deer populations, and what to do about it.
    So I think the first thing is awareness, that these are 
risks, there are substantial risks involved in the movement and 
the use of animals, particularly wild animals, particularly for 
human food.
    We need to learn more about them; we need to build the 
institutional frameworks to fund the scientific endeavors to 
evaluate risks, to identify and evaluate risk.
    Then we need to build the regulatory mechanisms to control 
that risk. I think that is the major lesson to me.
    Senator Braun. Anyone else want to weigh in?
    If not, I have a question. What is the most recent example 
of something that has actually leaped from an animal to a human 
being that we have caught here in this country, and what was 
the result of it, and how well did we respond to it?
    Mr. Epstein. Perhaps I could start with that. One recent 
example would be West Nile virus, which was introduced into the 
United States in 1999. It is an infection that is carried by 
birds and spread by mosquitos, and it not only can impact 
people, but also other animals, causing severe encephalitis.
    When that was first started, was first discovered in New 
York, in fact, at the Bronx Zoo, some of the animals in the 
collection were dying from it. But it quickly spread across the 
country to all of the States, and research jumped on that.
    Our response, collectively, was to understand what the 
reservoir was. This was recognized as a virus that typically 
existed in Africa, and this was the first incidence of it here 
in the United States.
    It turned out that at least in the eastern part of the 
country, robins were a reservoir for this virus, and mosquitos 
that were transitional and birds. But also mammals, including 
people, were a bridge vector that was driving transmission. In 
understanding that, we were better able to work toward vector 
control, mosquito control, diagnosing West Nile virus in 
patients that were presenting to hospitals with encephalitis, 
and tracking the spread of the virus across the country.
    Unfortunately, it was very difficult to stop the spread, 
and it made it across the country. Nonetheless, that was an 
example of awareness of the introduction of a zoonotic disease, 
which is now endemic here.
    Senator Braun. Thank you.
    Senator Barrasso. Thanks, Senator Braun.
    Senator Whitehouse.
    Senator Whitehouse. Thank you, Chairman. Thank you for this 
timely hearing, or perhaps maybe untimely hearing.
    A couple questions. First, Ms. Semcer, which international 
forums or organizations do you think are most effective and 
should be getting supported by the United States as a matter of 
our leadership on this issue?
    Ms. Semcer. I believe our continued engagement in the 
Convention on International Trade and Endangered Species is 
absolutely critical to addressing this issue.
    I would also offer that we should begin more bilateral 
engagement with our partners in Africa and elsewhere, where 
there is a high risk of zoonotic disease emergence so that we 
can tackle this problem not just multilaterally, but 
bilaterally.
    Senator Whitehouse. The role of the World Health 
Organization?
    Ms. Semcer. As I said in my earlier testimony, I think that 
what we have seen happen is indicative of the need for greater 
U.S. leadership on this issue. We cannot count on other 
countries to succeed in deterring the spread of zoonotic 
disease through demand reduction campaigns and even outright 
bans on consumption.
    Leadership requires engagement. Whether or not the World 
Health Organization is the appropriate forum for such 
leadership and engagement is beyond my area of expertise, but 
the U.S. must engage with the rest of the world on this issue 
if we are to confront it.
    Senator Whitehouse. Dr. Epstein, what is the next virus 
that you are worried about? Is there one that you have got your 
eye on that has not yet popped up into general circulation that 
is something that concerns you?
    Mr. Epstein. That is the million dollar question, isn't it? 
I will say that collectively, as a group, coronaviruses remain 
a concern in that we know that there exists a diversity of 
viruses related to SARS and to SARS-CoVi-2, and continue to 
circulate in bat populations around parts of southeast and 
eastern Asia. There is still of a risk of those emerging again, 
and so that is one we need to keep an eye on.
    I think influenza viruses also remain a concern. Those 
circulate annually and evolve continuously, and still have the 
potential to cause a pandemic, so flu viruses are important.
    A category of virus that I specifically look at that we are 
paying attention to is called Nipah virus. That is a virus 
carried by large fruit bats across Asia, and this is a virus 
that spills over almost annually in Bangladesh and India 
causing localized outbreaks of encephalitis. It carries a very 
high case fatality rate of about 75 percent on average, and so 
far, it is only capable of limited human to human transmission.
    But there is the potential that strains of this virus exist 
in nature that are more easily transmissible among people. So 
we are working very hard with local authorities and scientists 
to put in interventions that will limit the opportunity for 
that to jump.
    So that one is on the radar, but I would say a little 
differently than things like coronaviruses and influenza 
viruses, which have proven to be both transmissible and have 
the ability to cause global pandemics.
    Senator Whitehouse. To both of you, which aspects of U.S. 
trade policy should be brought to bear on dealing with this 
issue?
    Mr. Epstein. Should I begin?
    Senator Whitehouse. Sure.
    Mr. Epstein. Trade policy, so one of the issues that 
sparked that report I mentioned earlier from the GAO was really 
that we have a piecemeal approach to looking at importation of 
zoonotic disease through wildlife trade and live animal 
imports. The CDC has jurisdiction over known zoonotic agents 
and the animals that carry them.
    So there is some regulatory authority there to regulate, 
say, the importation of bats for the virus that I just 
mentioned, Nipah, or rodents because of the monkeypox outbreak 
that was sparked by the importation of African rodents that led 
to infection of prairie dogs that were sold as pets, and then 
infection of people in the Midwest back in 2004. But it is very 
specific to already established threats.
    USDA regulates the importation of animals looking at 
diseases that threaten livestock health, but doesn't look 
specifically at wildlife. So from a regulatory standpoint, we 
still have a big gap in looking across the board at live animal 
imports and the potential to carry zoonotic viruses. That is 
something that needs to be addressed.
    I wanted to say one more thing before I hand over to my 
colleagues. CITES has been mentioned a few times as an 
effective framework for dealing with this issue, but there are 
a couple of shortfalls, and I agree with Mr. Ashe, that CITES 
would have to be amended.
    No. 1, CITES doesn't address health issues in animals. No. 
2, it doesn't cover all the species that are known to be 
reservoirs for zoonotic viruses, some of which aren't protected 
or aren't endangered.
    Three, it doesn't govern the intranational movement of 
animals, which can still present a risk for emergence in a 
market system. These are things that would need to be addressed 
to make sure that this kind of global convention or treaty 
would be effective at protecting health.
    Senator Whitehouse. Thank you.
    My time has expired.
    Senator Barrasso. Thank you, Senator Whitehouse.
    Senator Ernst.
    Senator Ernst. Thank you, Mr. Chair, and I really do 
appreciate this topic today. This is very timely or untimely, 
as Senator Whitehouse just mentioned, but I am glad that we are 
taking it up.
    Illegal wildlife trafficking is a contributing factor to 
the spread of diseases like COVID-19. It is well known that 
China is ground zero for trafficked wildlife products. Making 
the matters worse, unregulated Chinese wet markets oftentimes 
serve as outlets for the purchase and sale of wildlife that can 
carry disease.
    As we continue to battle COVID-19, we all need to make sure 
that we are doing what we can to ensure that this never happens 
again. That is why I have introduced a bipartisan bill that 
would ban U.S. taxpayer dollars from being spent at China's 
unregulated wet markets ever again. The Federal Government 
should not be subsidizing these dangerous, disease prone 
markets.
    For our panelists, many have called for China's unregulated 
wet markets, and for those that haven't followed this, the wet 
markets are where wild and domesticated animals are sold and 
slaughtered for human consumption, to be shut down. We would 
love to see those shut down, given their role in spreading 
deadly diseases or viruses that pass from animals to humans, 
like SARS back in 2003, and now apparently, the novel 
coronavirus.
    The legislation that I introduced with Senator Merkley 
would ensure that U.S. taxpayer funds are not spent to purchase 
dogs, cats, birds, or other live animals at these Chinese wet 
markets, as has been done with taxpayer funds in the past.
    For the panel, would you agree that wet markets that sell 
and slaughter live animals are a danger to public health? If 
everybody could maybe answer that question and respond why you 
might see them as a threat to public health.
    Catherine, we will start with you, please. Thank you.
    Ms. Semcer. Thank you, Senator.
    The markets you describe certainly present a risk. But as 
was stated in a letter that I signed to the World Health 
Organization and U.N. Environment Program, along with a number 
of other researchers, it is really important that we not 
overreach on this issue.
    The experience has been after past outbreaks of Ebola, that 
when you seek to completely ban the consumption of wild game 
meat, those bans often fail because this is a cultural issue as 
much as it is a health issue. What happens is that the trade is 
then driven underground.
    We have seen this happen recently in China with their bans 
on wet markets. Once the trade is driven underground, you see 
an increased risk of disease, because the sanitary conditions 
these animals are kept in often become much worse than they 
were when the trade was out in the open.
    Similarly, if there is a disease outbreak, it becomes much 
more difficult for researchers to trace the origin of that 
outbreak, because you are all of a sudden in the criminal 
netherworld, and people are much less likely to talk with 
authorities than if the trade was out in the open.
    So while they do present a risk, it is important that we 
not overreach in our attempts to mitigate that risk.
    Senator Ernst. Could you agree that U.S. taxpayer funds 
shouldn't be spent in those wet markets?
    Ms. Semcer. Senator, I am not familiar with the past 
spending. I have to respectfully decline to comment.
    Senator Ernst. Fair enough, thank you.
    If you would, Dan, please go ahead, thank you.
    Mr. Ashe. Thank you, Senator.
    There is no doubt that wet markets, wherever they exist, 
present a risk. I think the important thing is for us to work 
internationally to define what constitutes high risk in terms 
of these markets, and then how do we go about working with the 
rest of the world to regulate and reduce the risk associated 
with those markets.
    So while I might agree with you on one level about not 
spending taxpayer money, some ways to reduce the risks may be 
to work with those countries to provide appropriate 
refrigeration, or introduce sanitary methods into those 
markets, recognizing, as Catherine said, it is going to be 
pretty hard to eliminate a lot of these markets, because they 
are tied to nutritional needs.
    I was in Cusco, Peru, last winter, and they have a classic, 
what you would call a wet market, in the middle of Cusco, Peru. 
They are integral to those communities and support for those 
communities' nutritional needs. So what I think we would need 
to look at is how can we target our assistance to reduce the 
risks associated with those markets.
    Senator Ernst. I appreciate that, thank you.
    And Dr. Epstein as well, please.
    Mr. Epstein. Yes, really, I think well stated by Dan and 
Catherine.
    Not much more to add on that, other than to say that what 
we really need to do to help mitigate risk from these markets, 
I think, is to one, understand what the high risk animals are 
that are coming into those markets, and work to improve 
conditions, eliminate high risk animals from the markets, first 
of all, improve conditions within the markets. And I think also 
work to reduce demand for wildlife species that are prone to 
entering these markets. That is going to take an effort of more 
sociological outreach and behavioral risk effort.
    Just a personal anecdote from working in Liberia in West 
Africa during, or just after the Ebola outbreak, where there 
was a ban on the consumption of bats and other wildlife, and in 
Liberia, bushmeat is the primary source of protein, people were 
phoning in to the Minister of Health asking when it was OK to 
eat bats again.
    Just because something is outlawed or banned, it doesn't 
mean the high risk behavior will stop. So I think it is 
important to really understand that risk.
    Thank you.
    Senator Ernst. Very good, and I appreciate that. What we do 
want to see is the stop of those types of products coming, 
obviously, illegally into the United States, but the spending 
of taxpayer dollars in those wet markets as well.
    So we do believe, a number of us, that we should not be 
spending Federal Government dollars in those unregulated market 
areas. Some of you have touched upon ways that we perhaps could 
improve conditions, work with those governments through various 
agencies, so that we don't see the spread, maybe, of those 
types of viruses to humans.
    Again, just building upon what Senator Whitehouse was 
visiting about earlier, what are those prime agencies that we 
could utilize to make sure that we don't see Americans infected 
with those viruses stemming from those wet markets?
    Yes, go ahead. Thank you.
    Mr. Ashe. As has been mentioned here several times, the 
Convention on International Trade and Endangered Species is the 
principal entity in agreement worldwide for the regulation of 
wildlife trade. As Jon mentioned earlier, it would have to be 
amended to cover trade in animals that is injurious to human 
health as well as trade in animals that is injurious to animal 
health and ecosystem health, but it would provide one 
overarching agreement.
    It would require support from the World Health 
Organization, from the International Organization for Animal 
Health, from the Food and Agriculture Organization. So again, 
it would require an international cooperative framework to 
bring the appropriate expertise together.
    Senator Ernst. OK, fantastic.
    I apologize, my time has expired.
    Senator Barrasso. Thank you so very much.
    Senator Booker.
    Senator Booker. Thanks so much, Chairman.
    I am grateful for this hearing, and of course to Ranking 
Member Carper.
    Look, I believe the critical lessons we have to learn from 
the COVID-19 and this incredible pandemic is in order to 
prevent future pandemics, we need to fundamentally change the 
way that we interact with wildlife across the globe. Quite 
simply, there is just no such thing as healthy humans in the 
absence of healthy animals and a healthy planet. We have been 
profoundly destructive in a very short period of time.
    We are seeing it with us now entering one of the greatest 
periods of mass extinction we have had on the planet. The 
deforestation, the habitat destruction that is going on is not 
just bad for wildlife, it is our own future that we put at risk 
when we destroy on such a global scale these ecosystems.
    The messages from scientists are very clear. In order to 
protect ourselves from future coronavirus, we must do three 
things: Stop destroying forests and ecosystems. No. 2: Shut 
down these live wildlife markets. No. 3 is put an end to 
wildlife trafficking. These are three globally urgent causes 
for the future of humanity. To not do this puts our species at 
serious risk.
    In April, Senator Graham and I led a bipartisan letter to 
the World Health Organization calling for global shutdown of 
live wildlife markets and the international trade in wildlife.
    But let's be clear: This is not just some problem out there 
in other countries. I know we are in a period of pointing out 
the extraordinary problem we are seeing in China. But let's 
understand, this is a global problem, and every country has an 
important role to play to reduce the risk of future pandemics.
    For example, in addition to doing more to eliminate 
wildlife trafficking in the United States, we must address 
factory farms, which present at least as much of a risk to 
starting a future pandemic as wildlife markets do. We know this 
because the yells, the consensus of concern, globally, about 
the overuse of antibiotics, for example, is going to create a 
super drug that threatens us all.
    Mr. Ashe, I am grateful for your testimony. You have 
already covered a lot of my questions, but I just want to go 
really quick, if you can, answer these questions in as short 
and concise a way as possible.
    For the U.S. to show global leadership, can you explain 
more that the Fish and Wildlife Service, what they should be 
doing domestically and internationally to reduce the risk of 
future pandemics? What scale of additional resources do you 
estimate the agency would need in order to be effective?
    Mr. Ashe. Well, domestically, I think they need to increase 
their enforcement of the Lacey Act. I think that they need to 
enforce the scale of their inspection efforts.
    So as wildlife products are coming into the United States, 
increase the scale and their ability to conduct inspections and 
increase their ability to do law enforcement investigation, so 
that we are finding the routes of trade whereby animals are 
illegally coming into the United States, and then reduce 
demand.
    The United States continues to be one of the world's, if 
not the world's, largest consumer of wildlife products. So I 
think the United States Fish and Wildlife Service has to have a 
multifaceted response: Inspection, law enforcement, demand 
reduction, conservation, and science to support all of these 
efforts. I would say the scale of that, it is certainly is in 
excess of a billion dollars to build that kind of network of 
support and capacity.
    Senator Booker. Right. And Mr. Ashe, I am irrevocably 
focused on China and their very bad actions. But what you just 
said there, about the role that the United States plays in 
global wildlife markets, we have serious work to do to step up 
to this. Live wildlife markets present this profound, 
unacceptable risk of zoonotic diseases that need to be shut 
down globally, including here, with the risks we see in the 
United States.
    Can you just talk about the zoonotic disease risks that are 
present in the entire wildlife supply chain with a little bit 
more specificity? Again, cogent, because I want to get one more 
question in, if I can.
    Mr. Ashe. OK. So, with a little bit more specificity, I am 
unsure what you are looking for, except that the volume of 
traffic in animals, legal and illegal traffic in animals, is 
enormous. So the U.S. Fish and Wildlife Service, just in terms 
of law enforcement, and illegal trafficking in wildlife, the 
general consensus was on a good day, we are inspecting about 10 
percent of the volume of traffic that is coming into the United 
States of animal traffic.
    So I think that given the current level of our capacity and 
investment, we have really kind of no reasonable hope of 
anticipating and then enforcing restrictions on the 
importations of dangerous, exotic pathogens.
    Senator Booker. Right. And you hit on the note I really 
wanted to get out of that question, which was, in a Nation that 
I have watched in my short time in the Senate that has spent so 
much money increasing enforcement with homeland security, so 
much money increasing enforcement with customs and border 
control.
    When it comes to the safety and well being of Americans, as 
we have seen the egregious amount of deaths from a global 
pandemic, to think that we are only inspecting about 10 percent 
or enforcing about 10 percent of the legal wildlife trade, not 
to mention what we need to do on the legal, we are woefully 
inadequate in doing what we need to be doing to protect 
American lives.
    The last thing I just want to ask you real quick is, Mr. 
Ashe, could you expand upon your testimony regarding the ways 
that deforestation and other ecosystem destruction puts us all 
at risk for future pandemics, and the massive clearing around 
our country as well as, frankly, the rainforest, going on to 
support these large demands of animal agriculture?
    We are seeing deforestation at levels that are stunning. 
Why is that such a risk for future pandemics?
    Mr. Ashe. Just briefly, as we think about the map that Mr. 
Epstein put up earlier, and when you think about these 
biological hot spots, the Amazon Rainforest, the Congo Basin, 
the Mekong River Basin, these are areas of tremendous 
biological diversity, including diversity in viral pathogens.
    As we are disturbing and disrupting these ecosystems, we 
are presenting the opportunity for the exchange. We are putting 
stress on the animals that live there, increasing their 
susceptibility to disease, and we are introducing pathways for 
those diseases to be introduced to humans.
    So we simply have to do a better job of conserving 
biological diversity globally, which means conserving the 
habitat for those animals. The U.S., again, is in a position of 
not only providing the international assistance to help drive 
that and build capacities in these countries, the U.S. is also 
in a position to show leadership by doing more to protect 
biological diversity here in the United States.
    Senator Booker. Mr. Ashe, if I can stop you, you are not 
giving the scale. Are you familiar with the book The Sixth 
Extinction?
    Mr. Ashe. Yes.
    Senator Booker. Tell me what that book is documenting.
    Senator Barrasso. Senator Booker, you are way over time. We 
still have three members of the Committee that are waiting to 
ask questions, so if you could just kind of limit it at this 
point?
    Senator Booker. That is my last question, is what is that 
book documenting and what is actually going on, the scale of 
it, and I will be done.
    Thank you, Mr. Chairman, for your leniency.
    Senator Barrasso. Thank you.
    Mr. Ashe. That book documents what is largely a scientific 
consensus among biologists and ecologists that we are living in 
the midst of the planet's sixth mass extinction event, and that 
the things that we are doing globally, humans, in term of our 
energy development systems, our agricultural systems, are 
driving this sixth mass extinction.
    Senator Booker. And that is a threat to humanity itself.
    Thank you very much, Mr. Chairman.
    Senator Barrasso. Thank you.
    Senator Van Hollen.
    Senator Van Hollen. Thank you, Mr. Chairman, and thank you 
to all the witnesses here today.
    To Mr. Ashe, it is good to have a fellow Marylander on the 
panel. Thank you for your service at the Fish and Wildlife 
Service.
    I have some questions regarding your experience then as it 
applies to now. We have all heard about the important role the 
Fish and Wildlife Service can play in combating and regulating 
international wildlife trade and preventing the spread of 
zoonotic diseases. One of the Fish and Wildlife overseas 
programs is the Central African Regional Program for the 
Environment, known as CARPE for short.
    Back in September 2019, in response to allegations of 
serious misconduct by local law enforcement and park rangers, 
the Department of Interior froze funding for the program, an 
action that I strongly supported. Because we need to make sure 
that our funds are targeted to the right people and the right 
organizations to do the job.
    I am concerned, however, that the department has not 
developed an alternative use for those funds aiming at the 
earlier objectives with respect to international conservation. 
And I do believe that the fact that that program is lapsing 
does raise a risk with respect to the issues that we are 
talking about today.
    Can you speak to that particular program, as well as other 
international programs? But start with that one.
    Mr. Ashe. The Central Africa Regional Program for the 
Environment has been an enormously successful effort, and funds 
many things, including law enforcement, anti-poaching patrols, 
and efforts like that. As you said, Senator, we need to 
increase our diligence to ensure that those kinds of activities 
are done in a way that is respectful of human rights and 
community prerogatives. So as you said, I would agree on that.
    But the larger part of the CARPE Program and U.S. 
international assistance in general has been aimed at 
developing capacity within these countries, capacity to analyze 
the environmental effects of economic development, to protect, 
to set aside protected areas in countries like Gabon, which has 
been a world leader in marine protected reserves.
    So if the department has concerns about the CARPE Program, 
then it should put in place the mechanisms to ensure those 
grants are reviewed to minimize the likelihood there will be 
human rights violations. To my knowledge, they haven't done 
that, and they are putting at risk close to $40 million of 
assistance that could be going to these countries to support 
the kinds of things that we have been talking about at this 
hearing.
    Senator Van Hollen. Well, I appreciate that, and I have 
raised this issue directly with Secretary Bernhardt. We have 
not gotten a satisfactory response as to what their alternative 
plans are with respect to those funds. I hope to work with the 
Chairman and Ranking Member on this Committee to get that 
sorted out.
    In the remaining time, can you talk to the intersection of 
climate change and the spread of zoonotic diseases? Clearly, a 
lot of the changes we are seeing in our climate impact animal 
migrations as well as other animal behavior, and bring them in 
closer contact with humans. We are talking about wildlife here. 
Can you talk about the intersection of those two issues?
    Mr. Ashe. Sure. I think climate change, as Senator Booker 
asked previously about the sixth mass extinction, I think 
climate change is a kind of an overlying or underlying cause of 
disruption and stress in ecological systems and stress in 
animals. That increases the likelihood, the incidence of 
disease and the likelihood of transmissions of disease between 
animals, between populations of animals, and between animals 
and humans.
    As with many other things, climate change and the global 
disruption, ecosystem disruption that we are seeing as a result 
of rising climate, is going to increase the incidence, the 
risk, the frequency of disease transmission. So as part of our 
efforts to save ourselves and hopefully save ourselves from a 
future pandemic, we need to turn our attention increasingly to 
climate change and solving that.
    Senator Van Hollen. Thank you. Mr. Chairman, thank you for 
holding this hearing, and that is the end of my questions.
    Senator Barrasso. Thank you, Senator Van Hollen.
    Senator Cardin.
    Senator Cardin. Thank you, Mr. Chairman, and let me thank 
all of our witnesses. This has been a particularly important 
hearing.
    We all know that we have a challenge. We have a challenge 
because of wildlife trafficking, we have a challenge, as 
Senator Van Hollen points out, because of climate change, we 
have a problem because of conflict between human life and 
animal life has become more challenging over time.
    COVID-19 has gotten the international attention that we are 
all in this together and that we need to be more aggressive in 
dealing with this issue. We now have the global attention.
    Each one of you has pointed out that U.S. leadership is 
indispensable in helping to deal with this challenge, and yes, 
we can learn from best practices of other countries; we can 
look at what has worked in this country, and we can refine 
those tools. We have talked about that during this hearing.
    But I am wondering whether we should have a bolder 
approach. Since we are in this pandemic, and we have the 
attention of the global community, should we be looking at a 
new treaty? Should we be looking at some form of enforceable 
international commitments to deal with wildlife trafficking and 
the spread of animal borne diseases that affect us, our human 
life? Is this the time that we should be looking to initiate a 
global response to control these activities?
    If any one of the three of you want to respond, that is 
fine with me.
    Mr. Ashe. Thank you, Senator Carper. I will just reiterate 
as I have said previously that I do believe we need a new, 
amended Convention on International Trade in Endangered 
Species, and so it could be a Convention on International Trade 
in Endangered and Injurious Species.
    The thing about CITES is that it is enforceable among the 
parties. You have an enforceable, international agreement.
    So I think that presents the greatest potential for us to 
address this issue, do it as promptly as possible, and build an 
international organization that has competence and capacity in 
the trade of wildlife.
    Senator Cardin. Thank you.
    Mr. Epstein. I would add, in support of what Dan was saying 
that CITES would be a good basis for developing additional 
scope.
    But I think in addition to a legal framework, we need to 
redouble our commitment to strengthening systems outside of the 
United States, and particularly in parts of the world and 
countries that are vulnerable to disease emergence, where 
wildlife trade and trafficking occurs as one of the risk 
factors, and to really make sure that there are systems in 
place that can rapidly detect and respond to the emergence of a 
novel pathogen that likely comes from wildlife. That is going 
to ultimately allow us to contain outbreaks before they become 
global pandemics like COVID-19.
    That is something that is really incumbent upon us, is 
having resources to help countries strengthen those systems. It 
is going to protect us. The cost, the investment required to do 
something like that, is a tiny, tiny fraction of what the 
damages have been already from COVID-19 and will continue to 
be. So these are investments we should be thinking to make 
beyond just policy.
    Senator Cardin. Mr. Epstein, can you identify a country 
other than the United States that you think has been the 
strongest and has the best model for us to take a look at in 
that regard?
    Mr. Epstein. Sure. There are a number of countries that 
have now been establishing One Health frameworks at a policy 
level, that is formal, codified relationships between 
ministries of health, ministries of livestock, of agriculture, 
and ministries of environment that include wildlife agencies.
    One example that is been particularly progressive is 
actually Bangladesh, which is a relatively small country, but 
it has responded to zoonotic disease outbreaks like Nipah virus 
and avian influenza and anthrax by really rallying around those 
and recognizing the need for coordinated surveillance and 
response.
    That is one example. There are other countries, too, that 
are building such frameworks in Southeast Asia and in Africa, 
starting to really bring together those three sectors of human 
health, domestic animal, and wildlife. I think that is a model 
we need to encourage and continue to support.
    Senator Cardin. Thank you.
    Mr. Chairman, I look forward to working with you and other 
members of the Committee. This is an area where I think we can 
make some strong progress. Thank you for having this hearing.
    Senator Barrasso. Thank you very much, Senator Cardin.
    As I turn to our Ranking Member, I just point out to our 
three witnesses, we have had over 13 members of the Committee 
participating by video and asking questions.
    Dan, you have been at a number of these Committee hearings, 
that is a pretty impressive turnout of this Committee, which 
shows how much interest there is in this topic.
    Senator Carper.
    Senator Carper. All the more remarkable, we only have 12 
members.
    [Laughter.]
    Senator Carper. I don't know where these extra people are 
coming from. We could have sold tickets for this one.
    I want to apologize again to Catherine Semcer, to Jonathan 
Epstein, and to Dan Ashe for being absent for much of the last 
hour. I serve as the senior Democrat on the Environment and 
Public Works Committee, but also the committee called Homeland 
Security and Governmental Affairs. We were marking up, I don't 
know, a couple dozen bills and nominations, so I am wearing two 
hats at once. I am not doing it all too well, but hopefully, 
things seem to have proceeded very nicely here in my absence. 
Not surprisingly.
    A number of the questions that I was prepared to ask have 
been asked. I will try not to ask them again, but one, again, 
thank you for not just for being here, but for answering the 
questions and for your testimony, but also for what you do with 
your lives. We are grateful to you for that and have been for 
some time.
    The first question I want to ask deals with the impact of 
COVID-19 on the AZA members. I was told by Elizabeth Mabry, who 
may be sitting behind me, about AZA. I thought that used to be 
a sorority at Ohio State, but as it turns out, it is also the 
Association of Zoos and Aquariums, so that is a twofer, I 
guess, Dan.
    Here is the question, though. While this question is on the 
periphery of the issues that our Committee is considering 
today, I don't want to pass up the opportunity to ask it.
    We know that the current coronavirus pandemic has seriously 
impacted zoos and aquariums. These facilities have unique 
needs. We are proud to have an AZA accredited zoo in Delaware, 
which contributes to wildlife conservation efforts and is an 
educational beacon in our State, and one that we hope to 
improve even more in the next year or two.
    My question would be this: Would you elaborate, Dan, on the 
impacts of the current pandemic on zoos and aquariums? How 
could these impacts harm conservation efforts, particularly for 
endangered and imperiled species?
    Thank you, go ahead.
    Mr. Ashe. Thank you, Senator Carper. AZA is an accrediting 
body. In order to be a member, you must be accredited. We have 
240 accredited members, mostly here in the U.S., but in 13 
countries across the globe.
    The pandemic has been devastating for them, because they 
are businesses more than anything else, they are businesses. 
They rely on earned revenue to do the work that they do, and 
that earned revenue comes from something that we call a guest 
or visitor.
    In a typical year, our members would welcome more than 200 
million visitors, or guests, which is more than all 
professional sports combined here in the United States. So they 
are under severe financial distress right now.
    The effect of that on conservation is that our members 
collectively, also in 2019, our members spent $232 million in 
direct support for field conservation. So coming into 2020, I 
suspect that contribution to conservation is going to decline 
precipitously, because our members are missing the key 
ingredient in supporting that conservation, which is gate 
revenue, visitor based revenue. They are under severe stress.
    These are organizations which play a key role in supporting 
the Federal Government's effort in saving animals from 
extinction, whether it is the Wyoming toad or the black-footed 
ferret, or the California condor, or the West Indian manatee in 
Florida, or sea turtles.
    Whether it is mountain gorilla in Uganda and Rwanda, our 
members are doing conservation all over the world, and they are 
supporting efforts at sustainable and healthy interactions 
between humans and wildlife.
    So without that key economic ingredient, which is earned 
revenue, the ability of our members to support that is going to 
be dramatically reduced.
    Senator Carper. All right, thank you.
    I think the issue of stress has been raised by a couple of 
my colleagues already, but I want to return to it just for a 
moment. Stress appears to be a key factor in an animal's 
susceptibility to disease, and therefore its likelihood of 
transmitting disease to other species, including us, human 
beings.
    Question: Would you elaborate on the role of--this is for 
Dr. Epstein--would you elaborate on the role of stress in 
animal disease transmission? What factors contribute to the 
stress experienced by traded animals? What might we be able to 
do as a Nation to reduce levels of stress with respect to our 
live animal import practices?
    Dr. Epstein, please.
    Mr. Epstein. Thank you, Senator Carper. That is a great 
question.
    Generally, speaking, stress, just like in people, causes 
immune suppression. When an animal or person is under stress, 
their immune system doesn't function as well. If they are 
already infected with, say, a virus, their ability to clear 
that virus from their system is impaired.
    What that can translate into is increased or prolonged 
shedding or transmission of that virus. So an animal under 
stress that is the host for a zoonotic virus may shed that 
virus for a longer period of time or at greater quantities, 
because it simply isn't able to get rid of it. That is directly 
one way that stress can influence risk of zoonotic disease 
transmission.
    Wildlife trafficking is a particularly stressful activity 
for the animals involved. They are often contained in tiny 
little cages. Many times multiple animals are packed together. 
If one of them is shedding, they all get exposed.
    Importantly, a lot of times in the trafficking route, the 
value chain to markets, multiple species are interacting with 
each other, and so animals that in nature would never normally 
interact have the opportunity to exchange pathogens like 
viruses. This can lead to viral mutation; it can lead to 
adaptation.
    Then when people are thrown into the mix, like in 
trafficking activities, they can then be exposed to animal 
pathogens that have the ability to infect people.
    So stress plays a big role. It is not being well studied 
directly, in other words, it is hard to say how much stress or 
what the cutoff is. But generally speaking, the conditions that 
animals are kept in as part of the illegal wildlife trade and 
sometimes legal wildlife trade contribute to the stress of 
those animals in transport.
    Senator Carper. I think you said that when I asked my 
question, you said that was an important question. You gave a 
very good answer; that was illuminating.
    I have one last question Mr. Chairman, if I could. I would 
just like to briefly ask our witnesses about citizen 
engagement. Do we have time? Thank you.
    I would say to each of our witnesses, and I would like to 
start with Catherine Semcer on this.
    You have spent a fair amount of time talking about the role 
of governments in preventing future zoonotic disease outbreaks 
and pandemics.
    My question would be this: What can U.S. citizens, do to 
help? What can U.S. citizens, do to help? Are there steps the 
U.S. Government in partnership with other governments is 
already taking or can take to educate our public on threats of 
wildlife trafficking to conservation and human health and 
safety? How can we help?
    Catherine.
    Ms. Semcer. Well, thank you for that question, Senator. We 
spent a great deal of time discussing how to better oversee 
wildlife trade and how to interdict wildlife that is being 
trafficked.
    But I always go back to the U.S. national security strategy 
and its goal of containing biothreats at their source. In this 
context, that means maintaining healthy, functioning 
ecosystems.
    In my written testimony, I have supplied a map that shows 
the overlap between the world's remaining large unroaded areas 
and likely points of zoonotic disease outbreak. I have also 
discussed extensively the role of Chinese investment in 
facilitating the deforestation of areas like the Congo Basin, 
where the risk of zoonotic disease spillover is very likely.
    I have also discussed the role that the U.S. consumer 
market plays in this deforestation. While a lot of the raw logs 
are going to China, that wood is then turned into products 
which are ultimately shipped to the United States.
    American citizens decreasing their demand for tropical 
hardwoods is absolutely essential to guaranteeing our 
biosecurity and our health security going forward. Limiting our 
consumption of tropical hardwoods from places like Africa is 
even more critical. So anything we can do to change that 
pattern of consumption to facilitate forest conservation in 
places like the Congo Basin, is going to be a step in the right 
direction.
    Senator Carper. Thank you, ma'am.
    Dr. Epstein, please.
    Mr. Epstein. In the United States, one of the main drivers 
of animal importation is the pet industry. I think it is really 
important that people do have a relationship with animals by 
having pets, and stay connected to them.
    But consumer education and making sure that our consumers 
are aware of the importance of domestically bred exotic species 
as opposed to those that are pulled from the wild through less 
diligent agencies that are selling animals would be an 
important step to limiting risk.
    Also, helping American consumers be aware of the potential 
risk for zoonotic pathogens coming in with certain animal 
species. So making sure that educations and outreach is part of 
helping to control consumer demand for exotic animals.
    Senator Carper. Thank you for that response.
    We have one last question. Same question for Dan Ashe, 
please.
    Mr. Ashe. Senator Carper, I will come back to the 
Association of Zoos and Aquariums and our 200 million visitors. 
I think there is a great opportunity to educate the public and 
increase the awareness amongst the public about what is 
happening globally, about the kind of ecosystem degradation 
that is happening globally, and what the United States of 
America can do to help stop that.
    Joining in campaigns like the Campaign for Nature, as I 
said, to save 30 percent of nature for biodiversity by 2030, is 
a great opportunity to explain to the public the importance and 
the need for biodiversity conservation and the related 
importance to human health.
    I think education about responsible behavior; the 
Association of Zoos and Aquariums is the home of the Wildlife 
Trafficking Alliance, which is an alliance of more than 80 
organizations including corporate organizations, as well as 
zoos and aquariums. One of their major endeavors is to increase 
awareness amongst the public about wildlife trafficking and 
what individuals can do to help stem the epidemic in wildlife 
trafficking.
    All of these efforts require engagement and leadership from 
the U.S. Government and support for efforts at education and 
awareness building and demand reduction and compliance, so that 
normal citizens can help us with compliance. So I think we are 
in great need of additional Federal investment and resources to 
support all of these efforts.
    Senator Carper. All right, thanks.
    Thank you all. It was great to see you, and thank you again 
for your good work and for joining us today, both in person and 
from afar. Thank you.
    Mr. Chairman, thanks.
    Senator Barrasso. Well, thank you.
    If there are no more questions from members today, they 
may, as you know, submit questions for the record, so the 
hearing record will remain open for 2 weeks.
    I want to thank the three of you for being here, Ms. 
Semcer, Dr. Epstein, Mr. Ashe. Terrific testimony, great 
insight. Obviously you generated a lot of interest from members 
of the Committee, and we are grateful for your time and your 
testimony.
    Senator Carper. Mr. Chairman, I have one UC request, if I 
could, before we adjourn, please. Thank you.
    Senator Barrasso. Please.
    Senator Carper. I ask unanimous consent to enter into the 
record supplemental materials from stakeholders with interest 
in zoonotic disease and wildlife trade. Thanks.
    Senator Barrasso. Without objection.
    [The refS NOT AVAILABLE IN TIFF FORMAT] 
    
    Senator Barrasso. Senator Whitehouse.
    Senator Whitehouse. Mr. Chairman, I just wanted to put in a 
good word for the International Conservation Caucus while we 
are having this conversation. That group has been working very 
hard to make sure that on a bipartisan basis, Members of 
Congress, members of the Senate, have the opportunity to 
understand these issues very well. Their support for the 
International Conservation Caucus Foundation has helped move us 
forward in oceans areas and other areas. I just wanted to add 
that plaudit before we drop the hammer.
    Senator Barrasso. Thank you very much for your leadership 
on that, Senator Whitehouse.
    Thank you all for being here and for your participation and 
your testimony and your time.
    The hearing is adjourned.
    [Whereupon, at 11:42 a.m., the hearing was adjourned.]

                                 [all]
</pre></body></html>
